No. 19-831
IN THE

Supreme Court of the United States
ADAM JARCHOW AND MICHAEL D. DEAN,
Petitioners,
v.
STATE BAR OF WISCONSIN, ET AL.,
Respondents.

On Petition For A Writ Of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I certify that the Reply Brief for Petitioners filed in this matter contains 2,798 words, excluding parts of the document
that are exempted by Supreme Court Rule 33.1(d).

Dated: April 17, 2020
ANDREW M. GROSSMAN
BAKERHOSTETLER LLP
1050 Connecticut Ave., N.W., Suite 1100
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

